<html>
<title> - FEDERAL HYDROGRAPHY PROGRAMS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                      FEDERAL HYDROGRAPHY PROGRAMS

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

    THE EFFECTIVENESS AND FUTURE OF THE FEDERAL HYDOGRAPHY PROGRAMS

                               __________

                     APRIL 24, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-15

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 41-072cc                     WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                 Christopher Sterns, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 24, 1997......................................     1

Statement of Members:
    Abercrombie, Hon. Neil, a U.S. Representative from Hawaii....     2
    Miller, Hon. George, a U.S. Representative from California...     3
    Saxton, Hon. Jim, a U.S. Representative from New Jersey; and 
      Chairman, Subcommittee on Fisheries Conservation, Wildlife 
      and Oceans.................................................     1
    Young, Hon. Don, a U.S. Representative from Alaska; and 
      Chairman, Committee on Resources...........................     3

Statement of Witnesses:
    Amory, Capt. L.D. Rick, American Pilots Association..........    17
        Prepared statement.......................................    58
    Borrone, Lillian C., Director, Port Commerce Dept., The Port 
      Authority of New York and New Jersey (prepared statement)..   122
    Bossler, Rear Adm. John D. (ret.), NOAA (prepared statement).   112
    Castellano, Cosmo, Program Manager, SmartBridge, Lockheed 
      Martin.....................................................    12
    Du Moulin, Richard, Chairman, International Association of 
      Independent Tanker Owners..................................    27
        Prepared statement.......................................    95
    Evans, Dr. David, Deputy Assistant Administrator, National 
      Ocean Service..............................................     5
        Prepared statement.......................................   138
    Grabowski, Dr. Martha, Member, National Research Council 
      Marine Board...............................................    23
        Prepared statement.......................................    71
        Supplement to statement..................................    77
    Josephson, Diana, Deputy Undersecretary for Oceans and 
      Atmosphere, Department of Commerce.........................     4
        Prepared statement.......................................    34
    Morton, Dr. Robert W., Vice President, Marine Systems and 
      Surveys Operation, Science Applications International 
      Corporation................................................    19
        Prepared statement.......................................    63
    Provo, James S., Senior Vice President, T. Parker Host, Inc..    21
        Prepared statement.......................................    67
    Spence, Capt. Michael C., Alaska Coastwise Pilots Association 
      (prepared statement).......................................   110
    Thomas, Captain Arthur, Chair, Harbor Safety Committee of the 
      San Francisco Bay Region...................................    25
        Prepared statement.......................................    87
    Travis, Will, Executive Director, San Francisco Bay 
      Conservation and Development Commission, State of 
      California (prepared statement)............................   105

Additional material supplied:
    Commerce Department: Vessel leasing..........................    16
    Lockheed Martin Demonstration Chart Technology...............    51

Communications submitted:
    Bettinelli, Capt. Louis (Interport Pilots Agency): Letter of 
      April 18, 1997, to Hon. Jim Saxton.........................   120
    Daly, Thomas F. (NJ Board of Commrs. of Pilotage): Letter of 
      April 18, 1997, to Hon. H. James Saxton....................   125
    Deane, Robert and William Sherwood (United NY & NJ Sandy Hook 
      Pilot's Benevolent Assn.): Letter of April 29, 1997, with 
      attachments to Hon. Jim Saxton.............................   127
    Kellogg, Captain Ted: Memorandum of April 15, 1997, to Hon. 
      Don Young..................................................   141
    McGovern, Andrew (Port of NY & NJ): Letter of May 1, 1997, to 
      Hon. Jim Saxton............................................   126
    Moore, Capt. R.A. (NY Harbor Pilot): Letter of April 18, 
      1997, to Hon. Jim Saxton...................................   121



                      FEDERAL HYDROGRAPHY PROGRAMS

                              ----------                              



                        THURSDAY, APRIL 24, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
[Chairman of the Subcommittee] presiding.

 STATEMENT OF HON. JIM SAXTON, A U.S. REPRESENTATIVE FROM NEW 
 JERSEY; AND CHAIRMAN, SUBCOMMITTEE ON FISHERIES CONSERVATION, 
                      WILDLIFE AND OCEANS

    Mr. Saxton. Good afternoon. Today's hearing will examine 
the Federal hydrography program and discuss its future.
    By way of explanation, hydrography is the practice of 
charting the seafloor. Two hundred years ago the waters of the 
United States were uncharted and shipwrecks were an expensive 
cost of doing business. Thomas Jefferson recognized that 
investing in accurate nautical charts was crucial to the 
commerce of the young nation, and in 1807 he created the United 
States Coast Survey, the agency which charted U.S. waters for 
190 years.
    We will address two issues in this hearing. First, new 
electronic navigation technology has the potential to greatly 
increase the safety and efficiency of navigation. We need to 
determine if our charting program produces products that 
realize this potential. Second, the Office of Coastal Survey 
has one-half the funding and one-fourth the number of survey 
ships that it had 25 years ago. This lack of resources means 
that ships traveling in many critical areas in United States 
waters--areas with narrow channels, shallow water and heavy 
traffic--have to rely on inadequate and out-of-date charts.
    Let me give an example of this new technology that will be 
available. For less than $1000 I, or any other boat owner, can 
purchase a GPS satellite navigation system that will tell me my 
position anywhere on the planet with a 20-foot accuracy. That 
may be a slight exaggeration, but 20 feet sounds good. If I had 
a perfectly accurate chart to go with the system, I could sail 
into a foggy harbor at night and tie up at the pier without 
ever looking out the window. Unfortunately, most nautical 
charts were made before the invention of GPS and the locations 
of objects sometimes do not match between old and new survey 
techniques. It is possible, when navigating near shore, to plot 
a GPS fix on an old chart and find your boat on land.
    This illustrates the benefits of new navigation technology 
and the problems that must be overcome before we actually see 
the benefits. No matter how impressive these new high-tech 
systems are, they do no good if the underlying charts are 
inaccurate or out of date. Accurate nautical charts and 
navigation systems are our first line of defense against costly 
marine accidents and the environmental damage they cause. In 
recent years millions of dollars have been spent cleaning up 
oil spills and attempting to repair damage to the environment. 
By spending a small fraction of this sum on accurate charts of 
U.S. waters, we can help prevent future oil spills before they 
happen.
    We should not wait for a major maritime accident to call 
our attention to this problem before we address it. It should 
be addressed now. We need to ensure that the U.S. nautical 
charting program, which represents two centuries of experience 
at ensuring safe navigation, has sufficient resources to 
prevent accidents before they happen.
    I will yield now to the gentleman from Hawaii, the ranking 
member of the Subcommittee.

STATEMENT OF HON. NEIL ABERCROMBIE, A U.S. REPRESENTATIVE FROM 
                             HAWAII

    Mr. Abercrombie. Mr. Saxton, thank you very much. I would 
like to simply reiterate your commentary as my own. I think you 
have covered it. Hydrography in a word is the science of 
charting the seafloor.
    I am particularly happy to see the panel that we have here, 
Mr. Chairman, because I am sure they are well aware--and for 
those who may not be aware and those among those who are 
attending today, a new island is being born off of the big 
island of Hawaii, Luihi.
    Literally charting the seafloor takes on an entirely 
different meaning for us in the contemporary world. If I am not 
mistaken, we have never had the opportunity literally before to 
chart the birth of an island from its very beginning. All of us 
will be long since gone and passed from this vale of tears and 
joy by the time that island thrusts itself above the level of 
the sea, but nonetheless we will and are now pioneers in the 
actual charting of its growth.
    So this hearing has particular meaning for me, and I am 
looking forward to the testimony and to the accomplishments 
that I am sure are going to be forthcoming as a result of the 
legislation we will be undertaking. Thank you very much.
    Mr. Saxton. At this time I would like to ask unanimous 
consent that all Members' statements be included in the record. 
And I have one statement here from Mr. Young, and I believe the 
minority has a statement from Mr. Miller.
    Mr. Abercrombie. Yes, sir.
    Mr. Saxton. OK, I ask unanimous consent that those two 
statements----
    Mr. Abercrombie. This is what passes for a statement from 
Mr. Miller I have here in my hand.
    Mr. Saxton. OK, I won't tell him you said that.
    [Statement of Hon. Don Young follows:]

  Statement of Hon. Don Young, a U.S. Representative from Alaska; and 
                    Chairman, Committee on Resources

    Thank you, Mr. Chairman. I am pleased to see that the 
Subcommittee is holding this hearing on nautical charting and 
hydrography. Hydrography surveying is indeed one of the often-
overlooked, but extremely important tasks that the U.S. 
Government performs.
    I am especially interested in this subject because of the 
present situation in Alaska. Every year, there is a significant 
increase in the number of large ships transiting Alaskan 
waters.
    Everyone knows that many of these ships carry oil and other 
hazardous cargo; but not many people outside Alaska realize 
just how popular the cruise ship industry in Southeast Alaska 
has become. The enormous extent of Alaska's waters means that 
many areas have never been accurately charted at all, and only 
a few areas have been surveyed well enough to produce the 
accurate charts that large ships need to operate safely. NOAA's 
Office of Coast Survey estimates that 22,000 square miles of 
Alaska waters now see enough traffic that the existing charts 
may be seriously inadequate.
    Right now, one U.S. survey ship operates in Alaskan waters. 
It will take 34 years for this ship to survey all 22,000 square 
miles that need new charts. This is a problem that needs to be 
addressed. Therefore, I think it is very important that 
Congress pay attention to the progress of NOAA's hydrography 
program. Nautical charts are something that everyone takes for 
granted, until an out-of-date chart causes an accident. We must 
not wait for a major shipping accident to call our attention to 
a problem that the Federal Government should be solving right 
now. We need to ensure that our hydrographers are doing their 
job of improving maritime safety and efficiency, and we need to 
make sure that they have the proper resources to get the job 
done.
    I look forward to hearing from our distinguished witnesses 
on this important subject.

    [Statement of Hon. George Miller follows:]

 Statement of Hon. George Miller, A U.S. Representative from California

    State-of-the-art navigation systems are a win-win situation 
for the San Francisco Bay area and all coastal communities. 
Getting the maximum possible information to mariners on depth, 
current, wind, and tides leads to safer and more efficient 
navigation. Safer navigation in turn saves lives and protects 
the environment. In addition, more efficient navigation means 
more goods can be delivered at lower cost, which is good for 
the economy.
    Last October, the Bay area received a clear wake up call 
when a tiny 200 barrel oil spill caused $10 million in damages. 
This spill was not the result of a navigation accident, but it 
showed that a spill of any significant size would be 
devastating to the economy and the environment of the bay area.
    We need to do everything we can to prevent oil spills. Even 
though we have made great improvements in our ability to 
respond to and contain oil spills, the technology simply does 
not exist to repair the damage once the oil is in the water. I 
have introduced legislation, H.R. 882, to authorize the removal 
of underwater rocks near Alcatraz Island that pose a threat to 
deep draft vessels. That is one practical step to reduce the 
risk of oil spills.
    Another practical step is to bring navigation systems up to 
date. NOAA, working with the San Francisco Bay Harbor Safety 
Committee and the Coast Guard, is doing just that. I support 
NOAA's efforts to improve the safety and efficiency of 
navigation through its San Francisco Bay Project. I hope that 
the Committee can continue to work in a bipartisan fashion to 
provide increased funding for these and other efforts of NOAA's 
navigation services program.
    Captain Art Thomas, who the panel will hear from later, 
speaks from a lifetime of experience navigating the bay, and I 
would like to thank him for his efforts in this area and for 
his support of the Bay SAFE legislation.

    Mr. Saxton. At this time I would like to introduce our 
first panel. Ms. Diana Josephson, Deputy Undersecretary of 
Oceans and Atmosphere in the Department of Commerce, and she is 
accompanied by Dr. David Evans, Deputy Assistant Administrator 
of the National Ocean Service, and Mr. Castellano, a Program 
Manager, SmartBridge, Lockheed Martin. May I remind the 
witnesses to please keep your oral statements to five minutes 
or less and your written statement will be included in the 
record.
    Ms. Josephson, you may proceed.

STATEMENT OF DIANA JOSEPHSON, DEPUTY UNDERSECRETARY FOR OCEANS 
             AND ATMOSPHERE, DEPARTMENT OF COMMERCE

    Ms. Josephson. Thank you, Mr. Chairman and members of the 
Subcommittee, for this opportunity to testify on NOAA's efforts 
to provide critical charting products and data for safe and 
efficient marine navigation.
    Every maritime country has always regarded providing 
navigation services as a function of the national government. 
NOAA and its predecessors have a history of almost 200 years of 
hydrographic charting, water level and geodetic expertise. 
Today more than 98 percent of U.S. foreign trade by weight is 
shipped by sea, and more than half of that is hazardous 
materials or petroleum. Since 1955 maritime trade has doubled 
and more than 2 billion tons of cargo move through U.S. ports 
each year. Vessels today are longer, wider and deeper than ever 
before, and each year there are about 3500 commercial shipping 
accidents. Safe, timely and efficient movement of goods is 
vital to keeping U.S. exports competitive.
    Working closely with our constituents and product users, we 
have established criteria for ranking those port and coastal 
areas most in need of new surveys, charts and related services. 
We studied the quality of existing data, the tonnage and value 
of goods, the hazardous nature of the cargo, total vessel 
traffic and passenger traffic, including operating areas of the 
cruise lines. As a result, we have identified a critical 
backlog of 39,000 square nautical miles remaining to be 
surveyed, more than half of this in Alaskan waters. At current 
resource levels, it will take about 34 years to do the job.
    Advances in navigational technology on modern ships have 
pushed us toward creating, certifying and providing highly 
accurate and up-to-date digital navigation data in addition to 
our traditional paper charts. We need to utilize three major 
advances in surveying technology to fully realize our goals: 
first, multibeam echo sounders that can provide highly accurate 
depth and full-bottom coverage; second, high-speed, high-
resolution side-scan sonars that provide vivid images of 
specific features such as rocks and wrecks; and third, the 
global positioning system that provides precise locations.
    If NOAA can fully implement these technologies, we estimate 
a 20 percent increase in survey efficiency, as well as 
obtaining 100 percent coverage of the seafloor. However, since 
1996 NOAA has been prohibited from procuring new survey 
technologies for our ships. Instead we have been instructed to 
contract for data collection. We are committed to outsourcing 
much of our data collection, and as long as NOAA maintains the 
expertise to quality control data from all sources, we can 
continue the government's traditional policy of self insuring 
against liability. However, when survey contractors use 
technologies unavailable to NOAA, we must require them to carry 
substantial liability insurance to indemnify the government and 
protect the U.S. Treasury from accident claims.
    Since the government will pay for the insurance, the 
prohibition against modernization may have the result of making 
private con-

tracting costs prohibitive. The other odd result of this ban is 
that the nation's expert, NOAA, is prevented from utilizing new 
technology to reduce the survey backlogs. As I stated earlier, 
at current resource levels we will need 34 years to complete 
the current backlog.
    I want to commend the Congress and this committee for 
recognizing the importance of this work by increasing our 
appropriations by almost $10 million over the past two years. 
However we have been asked what it would cost to do the job 
more quickly, say in ten years. Our current estimates for 
eliminating the survey backlog, producing digital charts, 
providing up-to-date water level data, including PORTS 
installations, will cost about $118 million per year for ten 
years or almost $58 million per year beyond current funding, 
not including the replacement costs for the three NOAA survey 
vessels. My written testimony provides more cost details, 
including a 20-year option.
    NOAA will continue to pursue private contracting for data 
collection and other services. We recently laid up two 
hydrographic vessels to provide funds for more contracting. We 
are preparing to contract for about $8.5 million worth of 
survey work with fiscal year 96 and 97 funds. We have even 
sponsored courses in conducting chart quality surveys to assist 
in developing private sector experience and capability, however 
we must have the in-house capability, operational knowledge and 
experience to be smart buyers of these private services, and we 
must have a complete technological understanding and confidence 
in the data collected by private contractors to protect the 
U.S. Treasury.
    To be most efficient, NOAA also requires permanent Brooks 
Act contracting authority to facilitate the increased use of 
private contractors by streamlining and accelerating the 
procurement process, and long-term lease authority so that we 
may enter into cost-effective contracts for hydrographic ship 
support from private industry.
    We greatly appreciate the committee's interest and look 
forward to working with you toward our mutual goals of not only 
reducing the survey backlogs, but ensuring that we have the 
safest, most up-to-date charting products and technology to 
support our nation's commerce and the health of our precious 
coastal ecosystems. This concludes my testimony. I would be 
happy to answer questions now or, if you prefer, we could 
proceed with the demonstration and answer questions later.
    [Statement of Diana Josephson may be found at end of 
hearing.]
    Mr. Saxton. What would you prefer?
    Dr. Evans. We can just go ahead if you would like.
    Mr. Saxton. I am sorry?
    Dr. Evans. We can just proceed with the demonstration if 
you would like to sort of save the questions.
    Mr. Saxton. Why don't you do that. Go ahead.

 STATEMENT OF DR. DAVID EVANS, DEPUTY ASSISTANT ADMINISTRATOR, 
                     NATIONAL OCEAN SERVICE

    Dr. Evans. OK, yes, that would be fine. Mr. Chairman, what 
I would like to do is take a few minutes and demonstrate some 
of the old and new technologies and kind of bring you up to 
date to show you what has happened over those 200 years, 
because there have been some very dramatic changes that have 
affected both the quality of the data on our charts and our 
capability of acquiring new data. I am going to break this up 
into three sections. I am going to talk about nautical 
charting, that is the actual preparation of charts. I am going 
to talk about hydrography, collecting the data that goes on the 
charts and forms the basis for it, and I am going to talk about 
measuring water levels and how we provide water level 
information to mariners as well. I have got some slides that 
will show how this works. And when I get all finished I am 
going to end by introducing our colleague from Lockheed Martin 
and demonstrate, sort of, where the government role ends in 
this continuum of activities and where the private sector is 
picking up.
    First of all, by way of a little bit of history, what you 
see up here is the way we used to make nautical charts. This is 
the traditional way and it has been what we have done for many, 
many years. Over on the far side you see some funny looking 
yellow pieces of plastic. That represents the nautical charting 
data base, the traditional data base, and it represents the way 
that we actually proceeded to make nautical charts. Corrections 
were hand ink, etched on those pieces of plastic. When new data 
were acquired, they were applied to those pieces. They were 
subsequently compiled to make the color separates required to 
drive the printing presses to print the charts that you are 
familiar with using. And folks like this, cartographers like 
this would sit there and make these corrections by hand.
    I think that the cartographic process probably represents 
the first and most important success story in NOAA's efforts to 
modernize its programs. I am going to move on.
    What we have done is to convert that process to one which 
is entirely computer based these days. What you see up in front 
of you with the little cartoons on the bottoms and up in the 
corners is a computer representation of a portion of a nautical 
chart. The entire suite of 1000 charts have got representations 
such as this, digital representations, that allows our 
cartographers to use those kind of tools like you would use 
with Mac Paint or a Paint program in Windows to make changes. 
And what you see on the left and right sides here are the 
results of those changes. The circled areas on the right frame 
represent changes that have been put in, changes in soundings, 
the position of a wreck and so on, that have been put in on the 
computer in the representation of that chart.
    The process then goes to take the resulting computer image 
from that chart and produce an entire representation of a 
nautical chart. That nautical chart then has two paths. The 
first path is to simply go out for distribution through a 
creative partnership that we have developed. You can buy these 
charts, many per compact disk that is compatible with your 
computer, and use it in your laptop computer for navigating a 
private boat, for example. The other path that those charts 
follow is to go to another piece of computer software that 
eliminates the process of having to do a negative engraving 
before making a paper chart. It automatically generates the 
color separates for the paper chart process and prepares the 
material that is necessary to go to the printer.
    The consequence of that is that a process that used to take 
more or less five years from beginning to end to acquire the 
data and make a revision of the chart, 38 weeks of which was in 
the simple production phase of getting the data and doing the 
engraving, is now reduced to the point where charts can be kept 
current to within a year of the time the surveys are acquired 
and will eventually be kept current to within a week of the 
acquisition of all data. That 38-week part of the process has 
been reduced to about three weeks in our current production 
scheme. So there have been significant changes made in the way 
that we have done the job, leading to two new products, one a 
digital product that can be used by boaters and the second a 
revised way of producing it.
    Now a rasterized chart like that is basically just a 
picture of a nautical chart, and whereas it represents a way 
that you can carry around a lot of charts very conveniently and 
you can edit them and we can print them, it doesn't actually 
contain the information that is needed to move into a modern 
era of navigation. For that you need this really rather strange 
looking creature up here, which contains all the important 
information that was on the previous more graphical looking 
chart. The same channel is outlined, the same navigational aids 
are outlined. The same shoreline features are outlined there. 
This is the information that you need if you really want to 
avoid having a serious collision in that harbor.
    Now the importance of this is that having a collision, as 
you know from the previous testimony, has very dire 
consequences, both economically and to the environment. What 
you see on this map of the United States here is a little 
cartoon where we have superimposed the area that was oiled in 
the Exxon Valdez accident on more familiar pieces of real 
estate for many of the people who are in the room, part of the 
geography that is a little easier to relate. So that, for 
example, that black area there that you see extending from 
Block Island Sound to about Cape Henry gives you a measure of 
the scale of the size of that accident when superimposed on the 
lower 48 States.
    It has been suggested that the existence of the kind of 
electronic data that I showed you in that previous 
representation operating on an electronic bridge using a modern 
ECDIS system, that is a computer-based system that can read the 
semantic information of the nautical chart, could have 
conceivably prevented the accident that happened on the Exxon 
Valdez by having the mechanisms available to ring an alarm 
bell, to flash some lights, to get people's attention, because 
the information content on the chart has been captured in that 
group of vectors lines that are on there, more than just a 
picture of the chart. So that an intelligent navigation system 
would be able to essentially know that a depth contour had been 
crossed or that an obstruction was coming.
    Mr. Abercrombie. Excuse me. Could you not necessarily 
repeat all of that, but I didn't quite get the transition. From 
what to what might have given the opportunity to be aware that 
something was going wrong?
    Dr. Evans. In making a computer representation of the data 
that is on a nautical chart, there is sort of two paths. The 
easy path is the graphical one where basically you have a 
picture of our nautical chart. It is a scanned image, kind of 
like a fax image, if you will. On the other hand you have to 
capture the information that is on the chart in a way that a 
computer could use it. If you want, it is the difference 
between having--receiving a fax out of your fax machine and 
receiving a word processor document via e-mail. If you have a 
fax, you have a picture of it. You can read it, but you can't 
correct it and you can't run it through the spell checker. But 
if you get an e-mail message, you can go through and check the 
spelling and, you know, change the grammar and move one 
paragraph around. You can actually work with the content in a 
meaningful way.
    If you have the vector representation of the information, 
associated with the lines where that channel is, is a piece of 
information in the data base that says this is the channel and 
the depth of the channel is X, or that there is an obstruction 
and the least depth of that obstruction is Y. And a computer 
program monitoring the position of where the vessel is as it 
traverses that chart can keep track of it and say, oh, my ship 
draws 48 feet and there is an obstruction up there that 
measures 35 feet, I better ring a bell if we are going to run 
into it within the next five minutes.
    Mr. Abercrombie. So it could have been programmed literally 
to have a bell go off like you would in your automobile if your 
fuel is too low or----
    Dr. Evans. Exactly.
    Mr. Abercrombie. [continuing]--something of that nature?
    Dr. Evans. In fact, at the very end of our discussion here 
Mr. Castellano is going to talk about a system like that which 
is currently under development at Lockheed that takes this kind 
of information--this is the kind of information which we need 
to produce for a modern era of generation, in contrast to the 
old more graphic kind of representation.
    Mr. Abercrombie. So it now would be possible, from what you 
are saying then, through technology, then to do what fathoming 
was all about before, you had someone actually throwing out a 
measure----
    Dr. Evans. Yes.
    Mr. Abercrombie. [continuing]--to figure how many fathoms 
you were involved in?
    Dr. Evans. In fact, that is exactly right. How to provide 
the information that shows the immediate context for where the 
ship is operating is exactly what we are all about. Nautical 
chart is one representation of that. Instantaneous----
    Mr. Abercrombie. OK, thank you.
    Dr. Evans. How much water is under the keel is another 
representation of that. And how that all gets brought together 
is really the----
    Mr. Abercrombie. So all this is transposable?
    Dr. Evans. I am sorry?
    Mr. Abercrombie. All this is transposable to the ship?
    Dr. Evans. Yes, absolutely.
    Mr. Abercrombie. Thank you.
    Ms. Josephson. And then it is also tied in with the global 
positioning system, you know, a GPS receiver on board the ship 
which can tie into these computer systems and tell you exactly 
where you are in relation to your position on the face of the 
earth.
    Dr. Evans. The issue of GPS is important also in terms of 
the content of the chart. Most of our charts were acquired 
using old technology. The technology for navigating was 
essentially celestial navigation using a sextant. The 
technology for finding depth was a technology--I can hardly 
lift it--of using a leadline and measuring how many fathoms of 
line there were over the side when it touched the bottom. That 
technology has been replaced, and the GPS technology for 
positioning is really important in terms of the information 
content that is on the chart.
    If you take a look at this area right here on the chart, 
the red circle around this wreck indicates the estimated 
possible error of positioning the wreck given the technology 
that was used to navigate that wreck. Now this was the best 
technology available at the time, done by careful people, had 
the full backing of the government that this was the accurate 
position of the wreck. But you see it has got somewhere between 
50 and 100 meters of possible uncertainty associated with where 
you are on the face of the earth when you position that wreck. 
A modern GPS receiver, the sort of thing you buy for less than 
$1000 at your marine hardware store, will give you an accuracy 
near shore about the size of a laser dot that is on the chart 
right now.
    Now if you are navigating your vessel with the 
understanding that you know your position to within the 
accuracy of that red dot, you may well be inclined to sail 
across here. I mean, look how far I am from that wreck. 
However, what is not indicated on the chart is that that wreck 
might be anywhere within the red circle that is indicated there 
because of the positioning accuracy used to locate the feature 
originally. So what we have now is the navigational capability 
of the mariner sailing has now exceeded the capability or the 
accuracy that was used to prepare the data for the chart 
originally. If we are going to modernize one aspect of the 
business, we have to modernize the other. The charts, to be 
useful, have got to have a commensurate level of accuracy 
associated with the location of the features on there. So that 
although this was the best that could have been done using the 
technology of the time, the technology has changed.
    Ms. Josephson. And about 50 percent of our charts, as I 
recollect----
    Dr. Evans. About 60--actually 60 percent of the data that 
are on our charts are more than 50 years old and were acquired 
with these kinds of technologies that you see on the table.
    So moving on, what is the size of the problem? We mentioned 
that--just to give you a graphical representation of what this 
critical area is all about, the shaded area on this chart is 
our EEZ. NOAA is charged with the responsibility of mapping the 
EEZ. That is how big it is. It is enormous. This is all to 
scale. The little red corner over here is what we have defined 
by the process that Ms. Josephson spoke of as being the 
critical areas in that EEZ, that is areas that are critical for 
safety, areas that are determined by the volume of the cargo 
that is being carried, number of passengers carried and so on. 
Here is an illustration on the East Coast of the U.S. The blue 
areas and only the blue areas are what would go into comprising 
that critical area. So when we talk about the scale of the job 
for everything that follows, the 34-year number that was cited 
earlier, we are talking about being able to work off these blue 
areas around our coastal waters.
    Now just to illustrate that point about how old the data 
are, the orange data on here are leadline data. This is a 
section of a chart from Alaska. Here is Juneau just to give you 
a sort of geographical orientation. The survey data from 1940 
to 1963 was collected with echo sounders, but done with old 
style echo sounders where the data were not recorded 
automatically and where the navigation was still essentially 
celestial navigation. The green areas in here were data that 
were collected from between '64 and '96, at least using modern 
radio navigation, principally LORAN in this case, other kinds 
of location for shoreline, but still single beam echo sounder 
data. So essentially all the data on that chart are data that 
arguably could be replaced.
    In addition to finding the depths in a general way, you 
also have to know where the wrecks are. We had a wreck up there 
before. People report wrecks and obstructions all the time. Our 
job is to note them on the charts as potential hazards to 
navigation until we can actually go out and investigate them 
and determine whether they in fact are hazards and can be 
removed, if they are able to be removed, or in any case note 
their location as hazards that they are. But just to give you a 
little example, this is Long Island here. We keep changing the 
scales on these charts. And this is just a plot of the current 
reported wrecks that need to be investigated in that figure.
    Well, you saw a picture of the leadline here. He is a sort 
of old wood cut of people collecting data with it. I mentioned 
that we moved from leadline data to single beam echo sounders. 
Here is a survey launch surveying the bottom with a single beam 
echo sounder. You get a very precise measurement of where the 
bottom is relative to the ship. And we can navigate the ship 
accurately, however, you move back and forth in definite 
patterns and you can easily find features such as those in 
between the lines that is covered on the bottom, and even using 
best survey practices there can still be significant features 
which are missed.
    The side scan sonar that was referred to earlier is a 
device that you can tow behind the ship, greatly slowing the 
speed at which you can work, but nevertheless you can tow 
behind the ship and make a picture of things on the bottom. Now 
although this is an image of it, you don't have any depth 
information, but having identified this you can take your ship 
back and do a more precise survey or conceivably even put a 
diver in the water to locate it. And this would be an example 
of a NOAA ship using a single beam echo sounder, making a track 
across the bottom, unfortunately missing a number of these 
bumps, but detecting the presence of those bumps by towing the 
sonar behind it then could allow you to go back and 
reinvestigate.
    The kind of data you would collect from a survey such as 
this? These are individual soundings. It doesn't matter so much 
what they are. The spacing here is about 100 meters between the 
boxes.
    Modern technology involves the use of a sonar system 
mounted again in the ship that gives you full bottom coverage. 
And everything that is covered in that blue beam there has been 
recorded. That is, the depth of all of those features has been 
recorded by the ship. And you get data that look like this. 
With reasonable practice, one essentially gets 100 percent 
coverage of the bottom. That also includes those features that 
you needed to previously pick up with the sonar, the side scan 
sonar systems.
    Just to graphically illustrate that, here is a section of 
bottom where what is shown in the orange stripe is what you 
would get with a conventional single beam echo sounder system 
and what you see is a spike that has been missed in between 
that would have been resolved by the full bottom system.
    The full bottom data have other uses as well, whether they 
are for other coastal mapping purposes, coastal zone management 
activities, scientific studies and so on, but we can move on 
from that, Rich.
    OK, ships are getting a lot bigger. The critical thing--the 
critical issue that I mentioned earlier is not just where are 
the obstructions and how deep the water is, but really what is 
the distance between the bottom of the ship and the bottom of 
the channel. So in addition to knowing where you are headed, 
which is what you get from a chart, you need to know how much 
water you have got underneath the keel. Traditionally mariners 
have gotten that data from published charts that we prepare and 
making tidal predictions for all the major port areas in the 
United States, both water depth and currents. The data for 
those come from tide gauges. We have got some tide gauges over 
here. The old system is right here.
    I am not going to get up and show it to you. It will take a 
lot of time to do the song and dance, but afterwards if you 
would like to come take a look at the old system--basically it 
is a mechanical system. It has a float and a wire and it 
measures how deep the water is in a little stilling pool, and 
from that you get tidal heights. You take many years of those 
data and you understand what the astronomical forcing is for a 
particular place and you prepare the tide prediction tables. We 
maintain a system of those stations all around the coast so 
that we have the information that is necessary to do those 
tidal predictions.
    Over the last ten years we have replaced this old 
mechanical system with a modern array of computer based 
technology that uses a--in this case it is an acoustic sensor 
for measuring the depth of the water to collect these data. The 
sensor is not as important as the fact that this is a computer-
based system that allows you to address the data rather 
rapidly, and in fact you could integrate other sensors nearby 
along with the same data screen. So that if you wanted to 
collect this data in real time--you are the guy driving that 
big tanker into a port and you would like to know how much 
water is there now, not what is in our tide book. The old-
fashion way of doing it--there were a few of these in different 
places around the country. Here is a real time system. It 
measures and gives you the water depth relative to sum zero.
    The way it happens now is with a system we call PORTS, 
Physical Oceanography Real Time System. You make a water level 
measurement. You can also measure ocean currents from the 
bottom. You can make measurements of atmospheric conditions, 
wind, waves, visibility and so on. You can do this not just at 
one point, but up and down the whole harbor and the whole bay. 
And using the computer technology that this system is based on, 
all of these data can be made available in essentially real 
time to a mariner.
    So that of the four systems we have right now--here is an 
example of data being made available via the Internet. You see 
the predicted value of the tides of this harbor in Houston, 
Galveston, and the actual values of the water levels over the 
last 16 hours, it looks like. You have a measurement of wind 
direction. You have measurements of velocity, the water 
velocity in the channel. And over here superimposed on a little 
map of the chart is a vector that shows actually what the 
current is doing right now as you are taking a look at that. 
These data can be available electronically. They can also be 
available on a voice response system. We have four such systems 
in operation around the country right now.
    So digital charts with smart information on them, vector 
information, modern hydrographic survey navigated with GPS 
standards, and at the very least those critical areas of about 
40,000 square nautical miles around our coasts, and real-time 
information that tells you how much water and where the 
currents are are the ingredients that are necessary to do 
modern navigation. Now the way that they all get brought 
together, frankly, is the job of the mariner. It is not the job 
of the government and it is not our role. Our job is to make 
those data available so that a person navigating a ship can 
safely pilot that ship in and out of our ports.
    And I will take the last couple of minutes and turn it over 
to Mr. Castellano, who will give you some information about how 
the private sector then takes all of these data in electronic 
form and packages them into something that actually can help us 
pilot safely through our waters.
    Mr. Saxton. Thank you very much. I would just like to say 
at this point that we are going to have a vote shortly, and if 
we can move through whatever information you have for us by 
that vote, then we can get onto the second panel immediately 
after the vote.
    Dr. Evans. Certainly. Thank you.
    Mr. Saxton. You may proceed.

 STATEMENT OF COSMO CASTELLANO, PROGRAM MANAGER, SMARTBRIDGE, 
                        LOCKHEED MARTIN

    Mr. Castellano. Thank you. My name is Cosmo Castellano. And 
as mentioned, I am the program manager for SmartBridge. This is 
an integrated bridge program at Lockheed Martin Ocean Radar and 
Sensor Systems in Syracuse, New York, and I came here to 
demonstrate our software. However, my computer has not made the 
trip as nicely as I would have liked to, so we are going to 
show a few overheads.
    The SmartBridge concept integrates a wide array of 
information that is critical to the mariner, and it provides a 
variety of displays to best present that information to the 
mariner on the bridge of the ship. Unlike other integrated 
bridge systems, our system combines collision avoidance along 
with situation monitoring in one display, moving radar and 
ECDIS type functionality on one display. We also are working 
with communication to vessel traffic management systems that 
are in place in various ports around the world to allow 
navigation information from shore to be integrated into the 
ship's display.
    This concept is being developed under a DARPA MARITECH 
initiative through a Department of Transportation marine 
adminis-

tration cooperative agreement. It is the goal of this project 
to enhance the competitiveness of U.S. ships by providing 
improved operational performance and safety at reduced cost. 
SmartBridge has been designed to work on vessels of all sizes. 
It is scaleable. Its hardware and software can easily be 
upgraded. SmartBridge also allows a number of fully operational 
displays to be placed anywhere on the ship, not just the ship's 
bridge. The ship's position is determined from the SmartBridge 
interface to a wide variety of ship's sensors shown on the 
bottom of the slide. Those sensors are primarily the 
differential GPS that has been spoken of here, as well as other 
positioning technologies: gyrocompass, radars, sonars and 
environmental sensors.
    Through data linkage with Lockheed Martin Vessel Traffic 
Systems products, the SmartBridge Integrated Bridge can provide 
a full-port traffic picture to the ship's master. Environmental 
data from NOAA's Physical Oceanographic Real Time System, or 
PORTS, along with the oceanographic models can be received by 
SmartBridge and displayed on the electronic nautical chart.
    Next slide, please. In the limited time here and without my 
computer, I will try to speak to these screen dumps of our 
system. What you see here is the raster type chart that was 
displayed earlier. Up top is conning information or status 
information for the ship. On the right-hand panel are controls 
to operate the radar and to input your voyage plan. Flip to the 
next chart, please. You can see we have other panels possible, 
such as one to control an infrared imaging system so that we 
could get a view from the ship in inclement weather.
    Next chart, please. On the--whoops, go back one chart. One 
comment I wanted to make. On the bottom of the chart you will 
notice there are alarms, alerts and warnings that come up, so 
in the event that there is a situation that the mariner needs 
to respond to, he has to acknowledge those warnings and alerts. 
Go ahead, Richard.
    This slide depicts the NOAA raster chart, and this is 
really the piece that I wished to show live. If it is available 
in the anteroom later--they are busily trying to recover the 
computer--I would like to show it to you. But this is the 
raster picture. As was mentioned, to the computer this is 
nothing more than a picture. It is great for us to look at, but 
there is absolutely no information in this picture that the 
computer can operate on.
    Next slide, please. What we can do in our system is to load 
in a vector representation of that same scene and 
geographically synchronize the vector information with the 
raster information. Ideally we could use a full vector set and 
just navigate from that. In this vector set each one of the 
objects on the screen are stored in a data base. From those 
objects we know how to paint those things on the screen. We can 
interrogate the objects either automatically or manually to get 
information about the objects.
    Go back to the raster picture, please, the previous slide. 
With this system, if we loaded in an incomplete vector set, 
just the set as was shown on NOAA's presentation, you could use 
this raster picture as the complete picture for a mariner to 
look at, and with the limited set of vector themes you could 
then interrogate the vector data through the raster picture to 
the data base that is underlying it for that information. In 
that manner, this provides a tran-

sition path such that an incomplete vector set may be used in 
conjunction with raster data as an alternative to a full vector 
chart.
    Subsets of the vector information may be used in layers 
that are selectively enabled or disabled in a vector nautical 
chart. And the next slide, please. And for instance, PORTS 
environmental data can be implemented as dynamic chart objects 
that are transmitted to the ship and overlaid on the nautical 
chart as arrows indicating direction of wind speed, with the 
arrow color used to show a range of magnitude.
    Next chart, please. The pictorial view, as in this case of 
currents in the San Francisco Bay, is much more powerful than a 
table of numbers, especially as presented on the familiar 
nautical chart. Real-time environmental data can be of 
tremendous value to the ship in place of astronomical tide 
tables. Using nowcast and forecast information, the mariner can 
safely move deep draft vessels through the harbor waters, not 
only enhancing safety but promoting and facilitating commerce.
    Combining the power of the vector chart with the more 
familiar look of the traditional NOAA charts allows this 
transition path for our nation's hydrographic office to 
progressively increase the vector chart data sets while 
allowing for the benefits of electronic navigation and position 
fixing. The combination of official chart data with the quality 
assured real-time environmental data provides the tools for the 
safe operation of our ports and harbors and can only enhance 
the competitiveness of United States shipping.
    I have just touched on the surface of what SmartBridge can 
do, but it is important to note that SmartBridge can only be as 
good as the data that goes into it. If the charting data is not 
GPS positioned, if the depths are no longer accurate due to the 
lack of updated surveys, if wrecks and obstructions are not 
identified and if real-time PORTS type information is not 
available, there is nothing that any modern technology can do 
to overcome that problem. Simply reformatting old data in new 
products is misleading to the user and is inconsistent with the 
quality of today's position measurement capability.
    NOAA has made good progress toward providing data in 
digital form that enables products like SmartBridge, which can 
enhance and add value to that data, possible. However, as I 
have just described, NOAA is far behind where the industry 
feels it should be in the provision of accurate, up-to-date 
navigation data. Persons from our traffic management group have 
been to a number of foreign ports and harbors to demonstrate 
our marine traffic management products. Most of these ports and 
harbors have current, accurate charts and even types of real-
time PORTS data. That obviously puts United States ports at a 
competitive disadvantage.
    I would like to thank you for this opportunity to 
participate in the hearing. I apologize for the loss of my 
computer system. I would be willing to demonstrate the 
SmartBridge software again if you so wish. Thanks.
    Mr. Saxton. Well, thank you very much for a very thorough 
presentation. It gives us a good understanding of the great 
progress that we are capable of making in terms of these items 
dealing with safety.
    Ms. Josephson, you state that the combination of full 
bottom surveys, digital charts, GPS and PORTS will enhance 
safety, efficiency and competitiveness. I suspect that all of 
this will cost a fair amount of money. Do we imply by your 
statement that we can expect the Administration to request 
funds to make this combination of tools available in a real 
basis?
    Ms. Josephson. We are just starting the fiscal year '99 
budget process right now, so the answer will be forthcoming. I 
can't predict at this point. I mean, we have developed, you 
know, the costs, as you are aware because we submitted them to 
you, projected cost of doing this, and we will see how the 
budget process works.
    Mr. Saxton. Thank you very much. I am going to excuse 
myself just temporarily to take a telephone call, and I yield 
now to the ranking member.
    Mr. Abercrombie. Thank you very much. I am going to take 
shameless advantage of the chance I had to ask the question for 
Mr. Saxton by noting that I saw smiles on everybody's faces 
when I spoke about Luihi, the island that is now growing off of 
Hawaii. Obviously this is a little bit different in the way of 
tracking, but would everything which you have enunciated here 
today be applicable in following the path of growth of the 
island and the various elements associated with its waxing and 
waning?
    Ms. Josephson. I guess the technologies could be applied, 
but in actual fact, you know, we have, I guess, one ship in the 
Pacific, which is basically currently focusing on charting in 
Alaska. So we don't have a charting capability, you know, in 
Hawaii. Would you like to respond?
    Dr. Evans. We don't have the capability to go do it. The 
technology would certainly apply, however.
    Mr. Abercrombie. I am just interested--I think that we have 
a rare opportunity as a species to understand literally how the 
planet grows or how land masses were developed in the ocean. 
And I know that the University of Hawaii is now engaged in 
charting, if you will, the history of it, but it may take more 
than what we are capable of right now, but that is something we 
can go over at a different time.
    Dr. Evans. It is essentially the same technology. In fact, 
the technology that we wish to apply to the shallow water 
charting problem that we are dealing with here today was 
originally developed for deeper water oceanographic exploration 
and exploration in support of minerals industry and that sort 
of thing, so that deeper water multibeam capability has been 
around for some time. I think it is available to the University 
of Hawaii. And for awhile that will be the appropriate 
technology for charting the development of the sea mount. As it 
becomes shallower, though, we will need to move on with the 
technology that I was demonstrating today.
    Mr. Abercrombie. Well, inasmuch as I have been caught, I 
will go right into the question and pretend that I was just 
putting a preamble in. Part of the plan you outlined today 
involves leasing dedicated vessels in areas where short-term 
contractors are not readily available. And you noted that up-
front scoring of lease costs and limitations in the length of 
the leases make this option as expensive as purchasing a new 
vessel. You also point out that there are no current plans to 
commit to capital costs of a new vessel. Would the 
Administration support legislation which for a limited number 
of ships, say two or three, permit 20-year leases and score 
lease payments in the year the funds are spent?
    Ms. Josephson. I think I would have to take that question 
under advisement. I don't know the answer for the 
Administration, I would like to respond for the record, if I 
might.
    [The following was received:]

                             Vessel Leasing

    Dedicated long term ship leases, and the ability to score 
lease payments the same year the funds are expended, represents 
a practical and cost effective approach to providing the 
government with platforms essential to acquiring hydrographic 
data and reducing the nation's critical nautical survey 
backlog.
    In the April 9, 1997, Department of Commerce report in 
response to direction included in House Report 104-676 
(accompanying Public Law 104-208, the Omnibus Consolidated 
Appropriations Act, 1997) on the National Oceanic and 
Atmospheric Administration's (NOAA) intentions regarding a 
lease back from the private sector of the hydrographic vessel 
Fairweather, NOAA estimated that a refurbished Fairweather 
could provide service for about 15 years. Current law allows 
for contracts of no more than 7 years. If a private firm were 
required to recoup costs of refurbishing and equipping the 
Fairweather in 7 years, annual contract costs to the Government 
could be prohibitive. The ability to contract for a longer 
lease would spread the start-up costs over a longer period of 
time (as was recommended by several of the private sector 
respondents) thereby making it a more cost-effective option.

    Mr. Abercrombie. It is a--can you do that? Because it is a 
point that we have to be able to----
    Ms. Josephson. Right.
    Mr. Abercrombie. [continuing]--address if we are to move 
forward with our colleagues, who will not be as well versed. 
And we can't have Mr. Castellano repeat himself to 433 other 
Members.
    Ms. Josephson. Right.
    Mr. Saxton. If I may, this is a hugely important question, 
I believe, and one that we are trying to deal with on the 
military side, as well. In order to provide, for example, 
military housing, we have a huge outlay each year.
    Ms. Josephson. Right.
    Mr. Saxton. When we get ready to put 100 houses on a base 
in Mr. Abercrombie's district, we have to expense that all in 
one year.
    Ms. Josephson. Right.
    Mr. Saxton. There is a movement toward leasing military 
housing. And the advantage is that you get to have your outlays 
over a period of, say, 20 years. And this is the same deal, but 
there is no advantage to leasing if we have to expense it all 
up front in one year. And so somehow we have got to get across 
this bridge so that we have the tool known as leasing available 
to help solve these problems.
    Mr. Abercrombie. We don't want to get trapped in a 
situation where we are thwarted in accomplishing the public 
purpose because of bookkeeping and accounting, not tricks, but 
methodologies that don't necessarily relate to the reality of 
the mission.
    Ms. Josephson. One of the reasons I am hesitating to answer 
is that I know that in other areas we have been told that if we 
have a lease the total cost is going to have to score up front, 
so that is why I want to take it under advisement.
    Mr. Saxton. Thank you.
    Ms. Josephson. I agree with you. We have a number of 
situations where we would like to do this, to lease in order to 
avoid the scoring issues, but it is a complex area.
    Mr. Saxton. Well, thank you very much. I have no further 
questions at this point. We thank you very much for a very 
thorough explanation of why this issue is important and of the 
explanation and demonstration of the technology that you have 
available to you. And I might just add that it is amazing. I 
found myself caught without a radar in Cape Cod Canal last year 
and the fog came. And that little GPS that I could hold in my 
hand literally got us through a very difficult situation, so 
this technology is really wonderful stuff, and we certainly 
want to help you proceed to put it to good use for everyone's 
benefit. Thank you again.
    Ms. Josephson. And I would like to thank the committee for 
holding this hearing on what we view as a very important area.
    Mr. Abercrombie. Mr. Chairman, might I request that if 
there are additional questions that we submit them and the 
panel perhaps be requested to answer in writing?
    Mr. Saxton. Without objection. Thank you very much, and we 
will be back for the second panel in 15 or 20 minutes. Thank 
you.
    [Recess]
    Mr. Saxton. Hopefully we will be joined by some additional 
members during the course of the next few minutes. In the 
meantime, I would like to introduce panel two, leading off with 
Captain L.D. Rick Amory of the American Pilots Association; Dr. 
Robert W. Morton, Vice President, Marine Systems and Surveys 
Operation, Science Applications International Corporation; Jim 
Provo, Senior Vice President, T. Parker Host, Inc.; also Dr. 
Martha Grabowski, a member of the National Research Council 
Marine Board; also Captain Arthur Thomas, Chairman of the 
Harbor Safety Committee of the San Francisco Bay Region; and 
Mr. Richard du Moulin, Chairman of the International 
Association of Independent Tanker Owners. We will begin from 
your right and proceed to your left, Captain. Proceed.
    Captain Amory. Thank you.
    Mr. Saxton. Welcome aboard, incidentally. I believe this is 
the first time that you have been here.
    Captain Amory. Yes, in this capacity.
    Mr. Saxton. We are pleased to have you.

     STATEMENT OF CAPTAIN L.D. RICK AMORY, AMERICAN PILOTS 
                          ASSOCIATION

    Captain Amory. Thank you. Mr. Chairman and members of the 
Subcommittee, I am Captain Rick Amory, President of the 
Virginia Pilots Association. On behalf of the American Pilots 
Association, a national trade association representing the 
United States' 1100 State licensed maritime pilots, thank you 
for this opportunity to participate in your oversight on the 
present state of NOAA's hydrographic charting activities and 
other maritime services. While the VPA and the APA fully 
support NOAA's efforts to use the latest technologies to 
minimize its hydrographic charting activities, I would like to 
take this opportunity to specifically address the work done by 
NOAA's National Ocean Service regarding real-time tide and 
current information that is relied on by my fellow pilots and 
the maritime industry in our country.
    Before I begin to address this issue, let me first thank 
the committee for its past efforts to increase support for the 
critical navigation services that NOAA provides to our nation. 
These increases have allowed NOAA to make dramatic improvements 
to its chart production capabilities. This is just the first 
step, however, to restoring NOAA's navigation services to the 
level they need to be at to ensure the nation's maritime 
industry has reliable tools such as charts and tide and current 
data.
    At the current annual funding level of $11 million for tide 
and current information programs--and to my understanding this 
is what is proposed for fiscal year '98--NOAA will not be able 
to maintain its national water level observation network, which 
provides the foundation for NOAA's critical tide and current 
services. In addition, although the technology and the know-how 
exists to provide Physical Oceanographic Real Time Information 
Systems, PORTS, to improve the safety and efficiency of 
maritime commerce by providing highly accurate observations of 
actual water level conditions, no moneys have been set aside 
for NOAA to work with interested ports on a national basis to 
provide the navigational information systems. Mr. Chairman and 
members of the Subcommittee, I strongly urge you to increase 
funding to these programs to enable the National Water Level 
Observation Network to be modernized and maintained, and for 
PORTS to be provided to ports that need their services and can 
support their operation.
    The challenge for today's modern pilot is knowing precisely 
what the ship's location is at all times, allowing him to 
safely navigate the vessel with regard to precise hydrographic 
information. Ninety-eight percent of today's U.S. bulk products 
are exported by ships. Vessels have gotten so large and 
intermodal transportation so complex that the ability to add a 
few extra inches of cargo or better schedule a transit by just 
a few minutes using real-time water level information can 
result in huge rewards in dollars of revenue.
    The safety issue is paramount. U.S. waterborne trade is 
expected to increase by 50 percent over the next decade. The 
consequences from even one major accident can be catastrophic. 
The APA is deeply concerned that the committee recognize the 
importance of NOAA's charting and real-time tide and current 
programs that are used by pilots every day around the Nation to 
navigate safely and efficiently. Pilots and ship owners rely 
heavily on NOAA's national standards for accurate charts, water 
levels and current information when making decisions regarding 
safe navigation of vessels.
    Navigation is made difficult by confined maneuvering areas, 
depth limitations and changing water level and currents due to 
unpredictable weather conditions. Just as wind forces can 
adversely affect an aircraft, so can water current affect the 
movement and maneuverability of a ship. When currents are 
combined with changing water levels and other dynamic factors, 
the need for real-time information becomes essential to 
allowing the right decision to be made at the right moment. 
This scenario to an airline pilot needing to know wind shear 
prior to taking off or landing.
    The nation's standards for these services must be protected 
in order for our ports to continue to compete in global 
economic mar-

ketplace. Mariners must be able to rely on timely, accurate, 
quality-controlled information. Inaccurate information is far 
worse than no information.
    The dredging and maintenance of channels and harbors 
provides the pilot with deeper waters to navigate in. Knowing 
the accurate water levels and currents is equally important. 
Even with all the dredging efforts, some ships which continue 
to call on our ports require lightering in order to meet the 
draft restrictions at certain locations. If quality controlled 
real-time water level information were available, it would 
allow the shipper to accurately calculate tons of cargo 
relating to safe drafts required.
    NOAA's navigation products, particularly the tide and 
current data, help make our transportation infrastructure more 
efficient and our nation more competitive in the global 
marketplace. Mr. Chairman, these major undertakings by the U.S. 
Government to provide accurate information for the safe and 
efficient navigation of vessels are critical in today's 
economic climate. The NOAA tide and current data programs have 
proven their effectiveness and are depended on daily by the 
pilot members of the APA while performing their duties. We urge 
your continued active support in having Congress make the 
necessary investment in NOS marine navigation services which 
are essential for maintaining economically competitive U.S. 
shipping.
    On behalf of the American Pilot Association, thank you 
again for this opportunity to present our views for your 
consideration. I will be happy to answer any questions at this 
time.
    [Statement of L.D. Rick Amory may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Captain. Dr. Morton.

   STATEMENT OF DR. ROBERT W. MORTON, VICE PRESIDENT, MARINE 
      SYSTEMS AND SURVEYS OPERATION, SCIENCE APPLICATIONS 
                   INTERNATIONAL CORPORATION

    Dr. Morton. Thank you, sir. As we have heard today, it is 
clear that modern technology can provide significant benefits 
to the safety and efficiency of marine commerce, but only if 
comprehensive hydrographic data are available that meet the 
requirements of these new systems. Fortunately, many of the 
advancements that have improved vessel navigation also have 
direct application to the methods by which hydrographic data 
are acquired, and surveys can now be accomplished with 100 
percent bottom coverage that is critical for the production of 
electronic charts and precise navigation of commercial vessels. 
However it should be pointed out that this technology is still 
very new. Improvements to the instrumentation and procedures 
are continually being made. These improvements generate much 
more data, and unless they are used in an appropriate manner, 
there is a definite potential for error or omission.
    I represent an organization that has spent the last several 
years developing systems and conducting surveys to meet the 
strict requirements for hydrographic surveying. NOAA is one of 
many clients we support, however they are unique in that they 
play a large role in setting the standards to which our system 
and procedures must adhere. SAIC was fortunate to be awarded 
the first contract that NOAA issued for hydrographic surveying 
using multibeam technology they discussed earlier today, and we 
are now preparing for a second contract to conduct a similar 
survey in the Gulf of Mexico.
    I believe that the contracting relationship between NOAA 
and SAIC was successful during execution of the first project, 
although it was a very complex and difficult effort. Throughout 
the duration of that contract, NOAA was extremely rigid 
relative to quality control issues, thereby insuring valid 
data. However, they were flexible in allowing SAIC to modify 
the survey schedules and plans in order to deal with the 
problems we encountered. I can honestly state that NOAA did 
their part to make the first contract survey a success.
    I can also state that the lessons learned in that survey 
were incorporated in the Gulf of Mexico contracts that are now 
under negotiation, including more concise language concerning 
accuracy and coverage as well as utilization of computer-
generated quality control. Furthermore, the use of the Brooks 
Act changes the emphasis in NOAA's selection process to one of 
technical capability rather than cost. All of these changes 
should make future contracts more efficient and profitable both 
for NOAA and the contractors.
    I believe that this is a key point. If NOAA is to be 
successful in contracting surveys over the long-term, it must 
find a way to maintain the quality of data while making the 
venture a profitable one for contractors. This leads directly 
to the issue of liability insurance, which is now included as a 
requirement in the Gulf of Mexico surveys. Our investigations 
has found that this is simply not a cost-effective option. 
First, it is not clear that the insurance would be available 
for the extended time required, and second, the costs for a 
single survey sheet exceed the overall funding available for 
the entire project.
    Furthermore, it is not the survey contractor who actually 
puts the depth down on the chart. That is now and should 
continue to be NOAA's responsibility. The fact is that the 
quality control procedures required by NOAA do provide a 
traceability back to raw data that will allow NOAA to make 
appropriate charting decisions. However, these are complicated 
decisions that must take into account the performance 
specifications of the modern instrumentation. I believe that 
NOAA is now capable of accepting that responsibility and should 
remain in that role by continuing to develop and enforce the 
appropriate quality control criteria. This means that NOAA must 
maintain a thorough understanding of the technology and 
procedures utilized by the survey contractors, a very difficult 
task during this period of rapid technology growth.
    I am also aware of the restrictions that have been placed 
on NOAA with regard to improvement of data acquisition 
technology. And although I agree with the emphasis placed on 
contracting, I am concerned that NOAA will not be able to 
maintain its expertise over the long-term without an ability to 
utilize such equipment in house. If NOAA does not have 
sufficient experience and qualified hydrographers, they will 
soon be unable to realistically judge the quality and 
efficiency of contracted surveys or to participate in the 
decisions made by the International Hydrographic Organization 
regarding the criteria for accuracy of hydrographic data. I 
believe an appropriate level of technology improvement should 
be preserved within the NOAA budget to insure that the agency 
is able to maintain its role of setting standards and that will 
allow NOAA to ac-

cept the liability associated with production of nautical 
charts. I would even go one step further and suggest that NOAA 
should be given responsibility for initiating and developing 
new technology and procedures to improve the efficiency and 
accuracy of hydrographic surveys.
    In summary, we at SAIC look forward to participating in the 
survey of critical areas of U.S. coastline and continuing to 
work with NOAA to ensure that the data acquired are compatible 
with the requirements of modern navigation. In order to 
accomplish this, we feel it is critical that NOAA be given the 
resources to maintain its expertise, to set the standards, 
provide the quality assurance and accept the liability that is 
inherent with the production of nautical charts. Thank you.
    [Statement of Dr. Robert Morton may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Dr. Morton. Mr. Provo.

 STATEMENT OF JAMES S. PROVO, SENIOR VICE PRESIDENT, T. PARKER 
                           HOST, INC.

    Mr. Provo. Mr. Chairman, my name is Jim Provo, and I am 
Senior Vice President of T. Parker Host, Incorporated. I come 
before you today on behalf of the National Mining Association 
and as President of the National Association of Maritime 
Organizations.
    The NMA member companies account for approximately three-
fourths of the coal production in the United States, over 1 
billion tons annually, and a vast majority of mined minerals, 
including iron ore, copper, gold, silver, uranium, lead, zinc 
and phosphate. The mining industry relies on our ports and the 
services provided by NOAA to export our minerals and coal to 
the markets throughout the world. The United States is the 
second largest coal exporter in the world, and in 1996 exported 
91.5 million short tons valued at $3.8 billion. NMA members 
include major coal export companies. U.S. mineral exports were 
$32 billion in '95, the last year for which the numbers are 
available.
    NAMO represents its members in all matters on a national 
level that affect foreign and domestic waterborne commerce 
using U.S. ports. The organization consists of steamship 
associations and maritime exchanges. We focus on the attention 
of operational issues that affect the viability of the 
steamship industry. NAMO's mission is to improve the climate 
for international shipping in the United States. It was created 
to focus Federal Government's attention on the needs of 
steamship agents, owners and operators, and others engaged in 
ocean shipping. Six successful years after the creation, NAMO 
is now 38 members strong coast to coast representing various 
businesses in the maritime industry. NAMO has a strong 
Congressional membership of 36 Senators and 139 Members of the 
House.
    As your invitation to me describes, the purpose of this 
oversight hearing is to examine and present the state of NOAA 
hydrographic charting activities and what should be done about 
the future of these activities. I am convinced that were it not 
for the active support of the House Resources Committee, the 
funding increase for NOAA's mapping, charting programs for the 
past two fiscal years, which were the first since 1981, would 
not have been possible. We greatly appreciate your leadership, 
Mr. Chairman, on this matter and seek your continued support, 
for the task of making the nation's nautical charts as accurate 
and dependable as possible is not finished.
    I am sure that you have heard statistics before, but they 
do bear repeating. Some U.S. coastal waters have never been 
completely surveyed, including 80 percent of the nation's top 
ten ports. At current funding levels, even with the recent 
funding increase made possible by this committee, it would take 
three decades to complete the survey backlog. There have also 
been dramatic cutbacks in the number of annual new charts.
    Since 1955 the nation's volume of international trade has 
quadrupled, with the United States achieving the largest 
waterborne import and export trade in the entire world. More 
than 100 public ports handled more than 1 billion tons of cargo 
in '95. This generated 1.6 million jobs, $21 billion in tax 
revenues and $16.3 billion in custom collections. Moreover, 
U.S. ocean-borne trade is projected to increase by 50 percent 
over the next ten years. Yet Federal Government spending for 
the support of marine navigation related services, except for 
the recent increase for charting programs, have steadily 
declined. The declining investment has created a situation that 
is unacceptable to those who depend upon the safe navigation of 
our marine waters and their businesses and trade, unacceptable 
to those who believe that our coastal environments are 
unnecessarily in danger and unacceptable, hopefully, to the 
members of the committee.
    NOAA has made great strides recently in streamlining its 
nautical charting program by converting its suite of paper 
charts to digital raster data base. This has enabled NOAA to 
dramatically accelerate chart production time, make charts 
updating easier, and reduce the time required to chart 
hydrographic survey data. The value of any nautical chart, 
however, is in the accuracy of the information. And that will 
only be achieved through the stepped-up program of acquiring 
new survey data. Only through improved data acquisition will 
the nation's nautical charts be truly reliable to those who 
depend upon them.
    A modest investment in modernizing the Nation and NOAA's 
marine navigation services include nautical charts, the 
National Water Level Observation Network, tide tables, water 
current data and the availability of proven effective Physical 
Oceanographic Real-Time Systems, PORTS, which has been a 
Federal responsibility since 1807 and a promise to those who 
have been involved in trade and maritime commerce which would 
have many benefits, benefits that would be over time in great 
value in the cost of the investment to modernize the Nation and 
NOAA's maritime navigation.
    In the report, Mr. Chairman, I do have some outlines of 
benefits. I realize the red light is on, and I will conclude my 
testimony.
    [Statement of Mr. James Provo may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Mr. Provo. Dr. Grabowski.

 STATEMENT OF DR. MARTHA GRABOWSKI, MEMBER, NATIONAL RESEARCH 
                      COUNCIL MARINE BOARD

    Dr. Grabowski. Mr. Chairman and members of the 
Subcommittee, it is my pleasure to be here today and to present 
testimony to you on the subject of hydrographic charting to 
assure safe and efficient ports and waterways for the nation. 
My name is Martha Grabowski. I am a member of the Marine Board 
at the National Research Council. I have chaired one major 
Marine Board study on navigation and piloting and assisted on 
several other studies that investigated hydrographic services 
and charting activities.
    My testimony will draw on the results of several recent 
Marine Board studies and provide additional personal comments 
derived from my independent research work. I will first address 
the underlying needs for improvements in hydrographic surveys 
and charting services in the U.S. ports and the general safety 
and economic benefits that can be expected as a result. I will 
describe conclusions from recent Marine Board work concerning 
appropriate roles for the Federal Government and private sector 
in providing these services and finally discuss strategies for 
producing and providing electronic charting services in the 
future.
    A number of Marine Board studies have concluded that 
because of the widespread public benefits and broad impacts on 
the national economy from maritime trade, there is a compelling 
national interest in supporting Federal programs that maintain 
safe and efficient ports and waterways. While this Federal 
support should be maintained, it can also be supplemented with 
local support where appropriate. It is possible to obtain more 
cost efficiencies in NOAA by using private industry to 
accomplish much of the data collection, data management and 
production of charting projects. Therefore, while support for 
essential Federal initiatives and investments must be 
maintained, NOAA must also select the most efficient and 
effective strategies for future progress to obtain the benefits 
from new hydrographic charting technologies.
    Mr. Chairman and members of the Subcommittee, NOAA is 
challenged to fulfill its strategic charting mission and make 
the necessary investments to assure adequate future capability 
using advanced technologies to meet critical user needs. The 
three basic tasks that must be supported are data collection 
and verification, data management and production and 
distribution of charts and related products. The Marine Board, 
in its 1994 report, ``Charting A Course Into The Digital 
Future,'' recommended that the most important public sector 
responsibility is management and control of the content and 
quality of the data that support navigation. The private sector 
can assist in data collection and product distribution using 
modern qualified technology and techniques, but NOAA must 
perform the central data management and quality control 
mission.
    For the most part, NOAA has been making significant changes 
in its operations to contract out those tasks that private 
industry can best perform and is attempting to maintain its 
core responsibilities and capabilities to meet public 
expectations. Private contractors, as we have heard, are 
engaged in hydrographic surveying task and in chart production 
activities. This transition of operations and reduction of the 
Federal presence in these areas will continue and will need to 
be monitored to assure that efficiencies are in fact achieved 
and key capabilities are retained when needed.
    The maritime industry, meanwhile, is impatient with the 
pace of transition to new technologies and improved services, 
especially in the areas, as we have heard, of accurate update 
surveying, data collection and dissemination and electronic 
charting. In a way, it appears that NOAA has fallen behind and 
not caught up with modern technology. It is true, as we have 
just heard, that many approaches to major ports have not been 
surveyed in decades. Areas around eight of the nation's ten top 
ports need extensive resurveying. While simple electronic 
charts are being made available, the raster charts that we saw 
demonstrated in the first panel are not produced with the type 
of digital data base that makes them acceptable for 
international standards in the future. And while NOAA has 
developed a real-time system for disseminating oceanographic, 
tide and current data, there are no Federal funds available for 
national implementation and operations.
    The United States was one of the leading nations in the 
development of electronic chart technology. In 1995, the 
International Maritime Organization, IMO, adopted performance 
standards for electronic chart display and information systems, 
ECDIS, that now represent the world's goal for electronic 
replacement of paper charts. This system requires the use of 
digitized vector data, as we have heard today. The vector 
format, for ECDIS, requires significantly more original 
investment to produce, but produces long-term benefits in terms 
of accuracy, usability and efficiency. ECDIS is the only 
electronic chart that will legally substitute for a paper chart 
under existing international agreement.
    A majority of modern mariners would like to have ECDIS 
charts for use as soon as possible. The production of these 
charts to the agreed international standards has proven more 
difficult than originally anticipated, which has led to the 
development of a proposed interim solution, so-called hybrid 
charts that use some vector data and some raster data.
    The question now is which overall strategy is best for the 
Nation in the long run as it moves to electronic delivery of 
hydrographic charts. In independent research on navigation and 
piloting systems that are being developed and deployed, as we 
saw in the SmartBridge program, a number of findings have 
indicated that NOAA's plans to develop and expand vector chart 
products are worthwhile endeavors that need to be supported. 
Full vector charts are needed as critical input to most 
shipboard advanced navigation systems, and the major benefits 
of new technology on a ship bridge will not be realized without 
the advent of vector data. In addition, continued support for 
producing raster charts is also justified, because they provide 
an interim benefit to all mariners. However, it is believed 
that support for NOAA's hybrid chart product, which 
incorporates pieces of vector data and pieces of raster data, 
is less important or urgent.
    In sum, new technologies are rapidly changing the 
traditional methods for hydrographic data collection and for 
the delivery of nautical charts to the mariner. These advances 
are important to the safety and efficiency of maritime trade in 
U.S. ports and waterways and should receive adequate Federal 
support. NOAA and the other Federal agencies are challenged to 
implement these new technologies while providing effective, 
accurate and reliable charting services to the maritime 
community. It will be important for NOAA to justify support for 
its hydrographic programs and assure that they meet the needs 
of the mariners and the general public. Thank you.
    [Statement of Dr. Martha Grabowski may be found at end of 
hearing.]
    Mr. Saxton. Dr. Grabowski, thank you very much. Captain 
Thomas.

   STATEMENT OF CAPTAIN ARTHUR THOMAS, CHAIR, HARBOR SAFETY 
           COMMITTEE OF THE SAN FRANCISCO BAY REGION

    Captain Thomas. Thank you, Mr. Chairman. Today I am 
appearing before you as Chairman of the San Francisco Bay 
Region Harbor Safety Committee. I want you to know that I am 
also and have been an active licensed State pilot for over 25 
years. I serve as Vice President of the American Pilots 
Association, and as Vice President of the International 
Maritime Pilots Organization.
    My objective today is to recommend to this committee that a 
state-of-the-art navigation system be developed for San 
Francisco Bay waterways. Some of the technologies that should 
be included in such an integrated system have already been 
tested in our area. Other technologies are currently under 
review and modification, but nowhere in the world have all of 
these technologies been integrated into a modern system that 
assures maximum commercial benefit with the greatest protection 
to the environment.
    Given the partnership arrangements between the maritime 
interests within the government and the private sector that 
already exist in the San Francisco area, we can think of no 
better location to implement this sort of exciting project. The 
San Francisco Bay Region is a very unique waterway. As a whole, 
the bay is the fifth largest U.S. port in oil handling, the 
fourth largest container port in the country. The bay contains 
11 ports within her boundaries, over 200 miles of ship 
navigation routes and over 200 berths for ocean-going vessels. 
The bay handled over 9000 large vessel transits last year, and 
we expect that number to grow. In addition, the bay is a major 
boating and commercial sportfishing area. You would enjoy 
sailing your boat there.
    The Harbor Safety Committee, which I chair, was created by 
the State legislature to address two primary objectives, to 
obtain and provide the highest environmental standards possible 
for our magnificent waterways, and number two, to ensure that 
our ports are among the most competitive, efficient and safest 
in the world. The committee's membership represents the entire 
spectrum of the maritime industry. It includes 
environmentalists, port authorities, labor and U.S. Government 
officials. All of these interest are very deeply committed to 
enhancing maritime safety on the bay.
    The ports of San Francisco Bay have long been recognized as 
strategic transportation links in the trade infrastructure and 
economic health of the nation. In 1994 alone over 67 million 
tons of cargo were imported or exported through the San 
Francisco Bay ports. Now those cargoes were produced either in 
inland States for export or were received for inland 
distribution. So the activities as-

sociated with these ports are really only the tip of the 
iceberg of the total economic activity involved.
    One of the major challenges facing our Harbor Safety 
Committee is the task of developing and implementing the best 
navigational system for a bay in which the weather patterns are 
constantly and instantaneously changing. Similarly, we want to 
design such a system that meets the rapidly changing shipping 
practices in one of the most challenging waterways of the 
world.
    Those familiar with San Francisco Bay and its tributaries 
know that the ship channels in which we operate are extremely 
shallow indeed. Those channels were designed in the 1920's and 
1930's for ships that averaged six to seven thousand gross tons 
and approximately 25 feet in draft. When I started piloting in 
1972, the average size vessel was about 11,000 gross tons and 
about 26 to 27 feet of draft. Currently the averages are over 
30,000 gross tons and in excess of 30 feet of draft. And we 
routinely handle vessels--for example the sister to the Exxon 
Valdez, the Sea River Long Beach, is a regular customer, as was 
the Valdez. But tankers of over 200,000 dead weight tons 
routinely call with drafts of 50 feet. We now have new 
container vessels that will be calling in our port. I point out 
the Regina Maersk class of vessel, which is a ship of 81,488 
gross tons, 1090 feet in length, 141 feet in beam and draws 46 
feet of water for draft, and the ability to load 155 tons of 
cargo or anywhere from eight to ten containers for every inch 
of increased draft on the ship.
    Both our tankers and our container vessels are being 
constrained in their loading abilities because of the shallow 
drafts, the shallowness of our channels. And what is happening 
is we need very accurate water level and current information in 
order to maximize the loading on those ships. The current 
international trend is toward larger, deeper ships. For example 
that container ship, or for the average container ship, an 
increase of one inch of draft can increase revenues from eight 
to $50,000 depending on the nature of the cargo. Each 
additional foot of draft can accommodate--that the port can 
accommodate--can mean over $120,000 for every transit, and to a 
shipper that means that there are increased revenues. A port, 
like the Port of Oakland within San Francisco, served 1637 
ships in 1995. An additional inch of draft would mean annual 
revenue increases of over $550,000.
    In any event, sir, we would appreciate that our written 
testimony directs us to a project for San Francisco Bay which 
we are urging the Subcommittee to recommend, and we are urging 
NOAA to continue. We provide the variety of navigational 
opportunities needed to evaluate these advanced technologies, 
and we believe that in place in San Francisco Bay are all of 
the agencies and the interested individuals and entities ready 
to accomplish the project.
    Thank you, Mr. Chairman.
    [Statement of Captain Arthur Thomas may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Captain Thomas. Mr. du 
Moulin.

    STATEMENT OF RICHARD DU MOULIN, CHAIRMAN, INTERNATIONAL 
            ASSOCIATION OF INDEPENDENT TANKER OWNERS

    Mr. du Moulin. Thank you. My name is Richard du Moulin. I 
am Chairman of Marine Transport Lines. We are the oldest 
shipping company in the United States, founded in 1816. We are 
based in New Jersey. We have a fleet of U.S. and foreign flag 
tankers and other types of vessels. Ten of our ships were in 
Desert Storm.
    I am also acting for the next two years as Chairman of 
INTERTANKO, which is the International Association of 
Independent Tanker Owners. We have over 500 members amounting 
to a fleet of over 155 million deadweight from 40 countries. It 
is a majority of the world's tanker fleet, and we import over 
60 percent of the oil that comes into the United States. Our 
goals are to promote free competition, safe transport and 
cleaner seas.
    All ship owners have a common need for better charts and 
navigational services, but tankers were singled out by OPA 90 
for special treatment. OPA 90 effectively provided for oil 
spill cleanup. But it went into punishment that goes beyond 
anything in the rest of the world, particularly the Natural 
Resource Damage Assessment, and unfortunately OPA 90 failed to 
provide adequately for prevention. OPA 90 put 100 percent of 
the liability of an accident on the tanker operator, but 
tankers are only part of a complex transportation system. We do 
not operate in a vacuum. The system includes the ship, pilots, 
tugs, vessel traffic control systems (VTS), terminals, aids to 
navigation and charts. Unfortunately, U.S. systems are 
generally deficient when you look at the volume of traffic in 
the United States, the extreme legal liability and the strong 
public demands.
    VTS, for example, where we have it is behind the great 
forts of the world, such as Rotterdam. Terminals, many are 
deficient. They are decrepit and mainly built for ships of the 
age 50 years ago. Charts are not accurate enough, as you have 
heard from other people today.
    INTERTANKO last year put together an important Port and 
Terminal Safety Study, a copy of which is being provided here 
for the record, which analyzes the situation and makes 
recommendations. With regard to charts, try to imagine an 
airplane pilot trying to fly safely with conflicting data or no 
data at all regarding the height of mountains, obstructions 
such as antennas and even the altitude of the runway he has to 
land on. Well, shipmasters and ship pilots face the same thing 
every day. The public is remarkably tolerant of airplane 
accidents, despite the loss of life. Yet for oil pollution the 
public has zero tolerance and seeks punishment.
    Clearly the public perception of the tanker industry is 
quite bad. But let me just recite the facts. Over the past 20 
years operating pollution has been reduced by 85 percent. These 
are international statistics, not just in America. This is 
mainly due to segregated ballast, which has been implemented in 
the world fleet. Accidental pollution is down 50 percent over 
20 years. Oil pollution from tankers is a source of 12 percent 
of the oil in oceans. Over two-thirds of the oil in the oceans 
come from ports and industry and the public ashore. Tanker 
owners invest 20 percent of the cost of a new ship in safety 
and environmental features, which is twice the ratio of land-
based industry. And we are now spending billions of dollars for 
fleet replacement, as mandated by OPA 90 and the IMO 
international regulations.
    To give an example of the scale of what pollution really 
is, Chevron in their annual report described that in 1996 for 
all the ships they own and operate plus all the ones they 
charter from independent tanker owners, the amount of oil 
spilled was comparable to a motorist filling up his tank with 
gasoline 600 times and dropping five drops.
    But any drop is too much. Our goal is zero pollution, but 
we can't accomplish it without systems improvement. We can't do 
it alone, and accurate charts are a part of the system. They 
are the foundation of the information we use. Without better 
charts, we lose the benefit of better pilotage. We lose the 
benefit of crew training, the simulator training we are doing 
quite extensively. We lose the benefit of ISM, which stands for 
International Safety Management, which is what IMO, the 
international regulations, require all tanker operators to have 
implemented by July 1, 1998. We are losing the benefit of the 
new standards for training certification and watch keeping 
which have been adopted internationally. We are losing the 
benefit of GPS, electronic charting and double hull, all 
because we don't have the right information. In effect, we 
stand the chance of having electronically aided groundings.
    U.S. and international tanker owners have made the 
commitment to safer transportation. Now Congress must commit 
the funding needed by NOAA, the Army Corps of Engineers for 
dredging, the Coast Guard for VTS, for example, by freeing up 
the harbor maintenance trust funds. We also need Federal 
Government agencies such as Coast Guard and NOAA to assert 
Federal authority for marine safety and operations and oppose 
well-intentioned but dangerous attempts by some States to 
preempt Federal authority. We appreciate NOAA's assurance of 
commitment to work with INTERTANKO to preserve a strong Federal 
role.
    I thank you for the opportunity today to discuss these 
important issues.
    [Statement of Mr. Richard du Moulin may be found at end of 
hearing.]
    Mr. Saxton. Well, thank you very much. I would like to 
thank all of you for what I think was very useful and 
articulate testimony about a subject which is certainly of 
concern to all of us.
    We have been joined by the Chairman of the Coast Guard 
Subcommittee, the gentleman from Maryland, who is also part of 
this Subcommittee. He does a great job. We have got a history 
in the Congress of giving the Coast Guard more jobs each year 
with less money to carry out their tasks. He has got a very 
difficult task, and we are glad that you are able to be here.
    Let me just ask a question which I think is really the key 
to this entire thing. Many of you or some of you, at least, 
mentioned the inaccuracy of current day charts. And that is 
obviously something that I can relate to, because without good 
data which is transferred to usable forms called charts, it is 
very difficult to do good coastal navigation. And obviously we 
are always concerned about coming into ports. And, my district 
borders the Delaware River ports, and that was a 90-mile 
stretch from the ocean to Philadelphia and, of course, on 
inland to Trenton. And without good charts those kinds of runs 
can be very dangerous.
    Do any of you have other thoughts that you would wish to 
share with us about accuracy of charts?
    Mr. Provo. I am glad you asked.
    Mr. Saxton. I thought that rolled up chart in front of you 
had a purpose.
    Mr. Provo. Thank you. As you probably know because you are 
a great sailor----
    Mr. Saxton. I don't know how great.
    Mr. Provo. Well, I don't either, but that is what----
    Mr. Saxton. I float around mostly.
    Mr. Provo. Some years ago the Coast Guard, in its 
overzealous way of trying to impose the penalties on vessels, 
was going at the charts provided by NOAA. Now in order to 
overcome this, a lot of the owners and operators started buying 
the British Admiralty chart. And they bought the British 
Admiralty charts because the British Admiralty charts are up to 
date. In sailing and mariners are aware that--I will take this 
for an example. I am not going to open the chart, but this is 
an interest to the Chesapeake Bay. It was issued in September 
of 1996. The Notice to Mariners is issued weekly, as you 
probably know. It is, most of the time, the duty of the second 
or third mate to make all these changes. So at 50 of these a 
year, we would have to take this on board for some poor third 
mate that hadn't been in the country or the ship hadn't been in 
the country in over a year, but he has his chart, it is just 
not up to date. The British Admiralty chart, however, has got 
for the year--this is also in 1995, '96 and '97. They have 
recorded on the bottom of their chart one, two, three, four, 
five, six, seven, eight changes that have been made so far on 
this chart in 1987--97, excuse me.
    So, you know, there has to be some place--if the British 
can do it, we sure as hell got to be able to do it. And I know 
we are moving through a different era and we are going to data 
bases and all this, but we are going to still need charts. We 
have to find a better way than issuing a Notice to Mariners and 
not in having charts that are on board that are updated which 
the Coast Guard is more than willing to assess a penalty 
against a ship for not having proper charts on board. That is 
the purpose for the chart, what NOAA is so far behind in trying 
to do. I think with what we have asked ships to do on OPA 90 
and we put all--and it has been said that we put a hell of a 
lot of burden on ship masters, the pilots, the owners and the 
operators. It is certainly our duty as a country of maritime 
industry to provide the tools for the people to be able to 
comply with these regulations.
    Mr. Saxton. Thank you very much. The first panel, of 
course, was the NOAA panel, and they laid out an ambitious, 
although I must say almost wholly unfunded plan to bring us 
into a situation where we solve many of these problems. If the 
plan that was outlined by NOAA today, which is attended to 
address the survey backlog and integrate surveys, tide and 
current data and other pertinent data into a format that can be 
used by today's mariners through digital schemes of one kind or 
another, if that plan were adopted and funded, would it solve 
most or all of the problems that you have related to us today?
    Mr. du Moulin. It would be the building block upon which 
you could start solving the other problems. Vessel traffic 
control systems is a major problem, but it is based on having 
accurate data. Pilots need to be better trained and have the 
lower pilots moved out and everyone else moved up. Ship 
operators have to have the same applied to them, but underneath 
it all is the data that you build the system around. And there 
is a tremendous effort being made by pilots, by ship owners 
around the world to upgrade themselves, but if they don't have 
the tools, the rest of the system just can't work.
    Mr. Saxton. Any of you can respond to this if you will. Do 
you believe there is a role for the private sector here? And if 
so, what is it, how big is it, what are the problems involved 
in it?
    Captain Thomas. As possibly one of those lower pilots that 
ought to be moved out, but I will respond to what you have 
said, Mr. Chairman, it appears that at least in San Francisco 
as a demonstration, there is a role for the private sector. And 
that partnering is being accomplished as we speak now. And I 
would think that those individuals, as self interested as they 
may be, such as INTERTANKO members, could, I am sure, partner 
with the Federal and State and local government agencies so 
that things are accomplished on a safe level.
    As to your original question about NOAA and what the first 
panel testified to, I think that what you heard from members of 
this panel, the response would be that yes, what NOAA has asked 
for would accomplish the task if in fact NOAA is providing the 
digital base in the correct format that it can be--that it is 
recognized by the international community and that the data is 
utilized, but a qualified yes to both questions.
    Mr. Provo. May I say one other thing, and then I will shut 
up?
    Mr. Saxton. Go ahead.
    Mr. Provo. You know, I think question two, what cost to the 
private sector, I think that has already been attended to. And 
when I say it has been attended to, we have this great harbor 
maintenance fee that we have that you guys are holding hostage. 
And I guess you have to for whatever reason, but if you would 
let some of it go, I think some of this could be helped to fund 
NOAA and the problems we have today. So I think the private 
sector, shippers, importers, if we want to refer to that, have 
already made their contribution. Why can't we use some of that 
money? I think you have got to go vote.
    Mr. Saxton. Yes, we have another one. Do you want to ask 
your questions at this point and then we will see where we are 
at the conclusion of your questions?
    Mr. Gilchrest. I will just make a quick comment. I don't 
think we are--actually that is a good comment, and we need to 
figure out what we are going to do with the harbor maintenance 
fee. And I think the harbor maintenance fee--depending on who 
you talk to will depend on how the money should be spent. You 
get rid of the harbor--you share the harbor maintenance fee and 
then you have a problem, maybe, with San Francisco Bay, as far 
a maintenance is concerned. And you give it over to the people 
who do the charts and--that is an issue that has to be 
discussed, and potentially with Federal courts it might be 
declared unconstitutional. So that is a whole other issue. What 
I would like to--I don't have much time. I would like to make 
sort of a philosophical comment first and then discuss some of 
the specifics.
    If we could pull back a little bit and look at the broad 
overview of planet Earth and we see the development and 
evolution of civilization, it has happened almost in a very 
arbitrary sense. The growth of nations, new technology, the 
international marketplace has striven to achieve a level of 
standard of living for people all over the world, especially 
the industrialized nations. But now we are coming to a point 
where some of you mentioned in the early part of this century 
ships were--I think it was the gentleman from San Francisco, 
how big ships were before World War II, how big they were after 
World War II. Now we are looking at channels that need to be 50 
feet in order for ships to come in. How deep does the dredging 
have to be? Where does the dredging material go? What is the 
optimum size? Have we achieved it?
    We are working with a human population that is getting 
bigger and more sophisticated, demanding more things with 
resources that are finite, so we have demands by more people on 
less and less resources. We all here are discussing the fact 
that we have to have international coordination on all of our 
mapping so it is--the ships can be safe. I would like to ask 
when I am done with this how the British do it and why we can't 
do it that way. If they can map the Chesapeake Bay, I don't see 
why we can't map the Chesapeake Bay. And if there is anybody 
here from the Department of Commerce, I would like to figure 
out how they can do it. Maybe they are just better at it 
because they are the ones that colonized us so they know all 
that stuff.
    But because of the constraints of time what I would like to 
do, Mr. Chairman, I would like to write down a list of the 
questions that I have and then fax, e-mail, mail, however we do 
it now, to each of the panel members here in the hopes that we 
can--these are issues that are sort of mysterious and you can 
see that there is not a whole lot of members here, so there is 
not a lot of interest in it, but it is pretty critical. These 
are pretty critical issues, especially if we are looking at a 
nation's economy. Shipping is becoming more and more important. 
Is there a size--maybe somebody--Mr. du Moulin, maybe you could 
answer this. Is there an optimum size to a ship? Do they ever 
get too big? What is the optimum size?
    Mr. du Moulin. In the tanker industry, ships have stopped 
getting bigger. You have got the 200,000 to 400,000 tonners 
coming over to Loop. These ships are trading into the deep 
water ports of the world. But tankers have stabilized in terms 
of size.
    Mr. Gilchrest. And that is because--why have they 
stabilized?
    Mr. du Moulin. Because they have proven that in terms of 
economies of scale, versus flexibility, that the classes of 
ship we now have: the 300,000 ton VLCCs, the 150,000 tonners 
for the Suez Canal, the 90,000 ton Aframax class; these have 
become standards.
    Mr. Gilchrest. What do they draw? What is the draft on 
that?
    Mr. du Moulin. The deepest--the big ones, the super 
tankers, will draw generally about 70 feet.
    Mr. Gilchrest. 70 feet.
    Mr. du Moulin. So they don't come into very many U.S. 
ports.
    Mr. Gilchrest. Right.
    Mr. du Moulin. The handier ships generally draw 40, 45 
feet. So it is not such a problem of making the ports that much 
deeper. It is getting them to the depth that they should be, 
and dredging just hasn't kept up. Container ships, I think, are 
the ones that are now growing more rapidly. Tankers have 
stabilized.
    Let me just talk about the issue of the funding. The 
simplest, the cheapest part of the whole system is just the raw 
data as to the depth of the water and the configuration of 
bottom. From that, industry can provide technologies for 
navigation. Ship owners are very happy to invest in modern 
navigational gear. We have it already. It is relatively cheap 
compared to the ship itself. And so the main thing is starting 
with a foundation of data. After that point funding will come 
in from industry.
    The other fact is that every accident you prevent is saving 
a lot of money, so it is a good investment. Billions have been 
put into oil pollution response, cleaning up oil, but you don't 
need all that money expended if you have fewer accidents. So it 
is a real payback by getting the data. That is the best payback 
in the system.
    Mr. Gilchrest. I guess we have 30 second for the next----
    Mr. Saxton. Let me just interrupt----
    Mr. Gilchrest. I don't think I'm going to--I have to go 
testify in Appropriations, so I won't be able to come back.
    Mr. Saxton. OK, me too. I have to go to the same place.
    Captain Thomas. Just one quick analogy if I may, Mr. 
Chairman. We are sitting in the Longworth Building. On 
container ships, if we take the Longworth Building, duplicate 
it, make it double in length, now we are talking about the kind 
of container ship that is currently being constructed and 
calling in our ports. And they are very constrained by their 
draft and by the channel widths and so forth. But I think 
perhaps, just perhaps, the container industry is seeing that 
economy of scale beginning to stop because the ports, generally 
speaking, the less developed ports, cannot handle all of those 
containers that call on a ship of over six or seven thousand 
container equivalent units.
    Mr. Gilchrest. So we have ports that might be 35 feet now, 
maybe 40, and quite a--year after year people are asking us to 
dredge the approach channels of the ports deeper and deeper. Do 
you think that is coming to an end now?
    Captain Thomas. No, I don't think so. You are being asked--
ports are being asked to dredge deeper and deeper and deeper 
because for years they have not been dredged. And I think that 
is a very valid point to consider. The Port of Oakland is one, 
for example. We were 25 years in the planning of a dredging to 
38 feet. I wasn't even a pilot, and I have been a pilot for 
over 25 years, when I engaged with the Port of Oakland and the 
Corps of Engineers in planning that deepening project. 38 feet 
was envisioned back in 1970 as the deepest possible that that 
port would ever have to go to. Now they are talking 48 feet and 
maybe that is not enough.
    Mr. Saxton. Well, let me just explain our situation. Wayne, 
the gentleman from Maryland, and I both have to go the Commerce 
Subcommittee, ironically enough, to testify on the NOAA appro-

priation for the next fiscal year. And so I would like to go 
vote and come back here. Unfortunately we are going to be 
unable to do that. And so we want to thank you very much for 
being with us today. And as the gentleman from Maryland 
suggested, we may be submitting some additional questions to 
you in writing. Thank you very much. And the hearing is--I have 
to go vote.
    Mr. Abercrombie. We all have to go vote. I just wanted to 
congratulate Mr. Provo. I have wanted to congratulate you 
because you said Nation Water Level Observation Network tide 
tables and water current data and the availability of proven 
effective Physical Oceanographic Real-Time System, PORTS, all 
in one breath.
    Mr. Saxton. The hearing is adjourned.
    Thank you.
    [Whereupon, at 4:00 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

[GRAPHIC] [TIFF OMITTED] T1072.001

[GRAPHIC] [TIFF OMITTED] T1072.002

[GRAPHIC] [TIFF OMITTED] T1072.003

[GRAPHIC] [TIFF OMITTED] T1072.004

[GRAPHIC] [TIFF OMITTED] T1072.005

[GRAPHIC] [TIFF OMITTED] T1072.006

[GRAPHIC] [TIFF OMITTED] T1072.007

[GRAPHIC] [TIFF OMITTED] T1072.008

[GRAPHIC] [TIFF OMITTED] T1072.009

[GRAPHIC] [TIFF OMITTED] T1072.010

[GRAPHIC] [TIFF OMITTED] T1072.011

[GRAPHIC] [TIFF OMITTED] T1072.012

[GRAPHIC] [TIFF OMITTED] T1072.013

[GRAPHIC] [TIFF OMITTED] T1072.014

[GRAPHIC] [TIFF OMITTED] T1072.015

[GRAPHIC] [TIFF OMITTED] T1072.016

[GRAPHIC] [TIFF OMITTED] T1072.017

[GRAPHIC] [TIFF OMITTED] T1072.018

[GRAPHIC] [TIFF OMITTED] T1072.019

[GRAPHIC] [TIFF OMITTED] T1072.020

[GRAPHIC] [TIFF OMITTED] T1072.021

[GRAPHIC] [TIFF OMITTED] T1072.022

[GRAPHIC] [TIFF OMITTED] T1072.023

[GRAPHIC] [TIFF OMITTED] T1072.024

[GRAPHIC] [TIFF OMITTED] T1072.025

[GRAPHIC] [TIFF OMITTED] T1072.026

[GRAPHIC] [TIFF OMITTED] T1072.027

[GRAPHIC] [TIFF OMITTED] T1072.028

[GRAPHIC] [TIFF OMITTED] T1072.029

[GRAPHIC] [TIFF OMITTED] T1072.030

[GRAPHIC] [TIFF OMITTED] T1072.031

[GRAPHIC] [TIFF OMITTED] T1072.032

[GRAPHIC] [TIFF OMITTED] T1072.033

[GRAPHIC] [TIFF OMITTED] T1072.034

[GRAPHIC] [TIFF OMITTED] T1072.035

[GRAPHIC] [TIFF OMITTED] T1072.036

[GRAPHIC] [TIFF OMITTED] T1072.037

[GRAPHIC] [TIFF OMITTED] T1072.038

[GRAPHIC] [TIFF OMITTED] T1072.039

[GRAPHIC] [TIFF OMITTED] T1072.040

[GRAPHIC] [TIFF OMITTED] T1072.041

[GRAPHIC] [TIFF OMITTED] T1072.042

[GRAPHIC] [TIFF OMITTED] T1072.043

[GRAPHIC] [TIFF OMITTED] T1072.044

[GRAPHIC] [TIFF OMITTED] T1072.045

[GRAPHIC] [TIFF OMITTED] T1072.046

[GRAPHIC] [TIFF OMITTED] T1072.047

[GRAPHIC] [TIFF OMITTED] T1072.048

[GRAPHIC] [TIFF OMITTED] T1072.049

[GRAPHIC] [TIFF OMITTED] T1072.050

[GRAPHIC] [TIFF OMITTED] T1072.051

[GRAPHIC] [TIFF OMITTED] T1072.052

[GRAPHIC] [TIFF OMITTED] T1072.053

[GRAPHIC] [TIFF OMITTED] T1072.054

[GRAPHIC] [TIFF OMITTED] T1072.055

[GRAPHIC] [TIFF OMITTED] T1072.056

[GRAPHIC] [TIFF OMITTED] T1072.057

[GRAPHIC] [TIFF OMITTED] T1072.058

[GRAPHIC] [TIFF OMITTED] T1072.059

[GRAPHIC] [TIFF OMITTED] T1072.060

[GRAPHIC] [TIFF OMITTED] T1072.061

[GRAPHIC] [TIFF OMITTED] T1072.062

[GRAPHIC] [TIFF OMITTED] T1072.063

[GRAPHIC] [TIFF OMITTED] T1072.064

[GRAPHIC] [TIFF OMITTED] T1072.065

[GRAPHIC] [TIFF OMITTED] T1072.066

[GRAPHIC] [TIFF OMITTED] T1072.067

[GRAPHIC] [TIFF OMITTED] T1072.068

[GRAPHIC] [TIFF OMITTED] T1072.069

[GRAPHIC] [TIFF OMITTED] T1072.070

[GRAPHIC] [TIFF OMITTED] T1072.071

[GRAPHIC] [TIFF OMITTED] T1072.072

[GRAPHIC] [TIFF OMITTED] T1072.073

[GRAPHIC] [TIFF OMITTED] T1072.074

[GRAPHIC] [TIFF OMITTED] T1072.075

[GRAPHIC] [TIFF OMITTED] T1072.076

[GRAPHIC] [TIFF OMITTED] T1072.077

[GRAPHIC] [TIFF OMITTED] T1072.078

[GRAPHIC] [TIFF OMITTED] T1072.079

[GRAPHIC] [TIFF OMITTED] T1072.080

[GRAPHIC] [TIFF OMITTED] T1072.081

[GRAPHIC] [TIFF OMITTED] T1072.082

[GRAPHIC] [TIFF OMITTED] T1072.083

[GRAPHIC] [TIFF OMITTED] T1072.084

[GRAPHIC] [TIFF OMITTED] T1072.085

[GRAPHIC] [TIFF OMITTED] T1072.086

[GRAPHIC] [TIFF OMITTED] T1072.087

[GRAPHIC] [TIFF OMITTED] T1072.088

[GRAPHIC] [TIFF OMITTED] T1072.089

[GRAPHIC] [TIFF OMITTED] T1072.090

[GRAPHIC] [TIFF OMITTED] T1072.091

[GRAPHIC] [TIFF OMITTED] T1072.092

[GRAPHIC] [TIFF OMITTED] T1072.093

[GRAPHIC] [TIFF OMITTED] T1072.094

[GRAPHIC] [TIFF OMITTED] T1072.095

[GRAPHIC] [TIFF OMITTED] T1072.096

[GRAPHIC] [TIFF OMITTED] T1072.097

[GRAPHIC] [TIFF OMITTED] T1072.098

[GRAPHIC] [TIFF OMITTED] T1072.099

[GRAPHIC] [TIFF OMITTED] T1072.100

[GRAPHIC] [TIFF OMITTED] T1072.101

[GRAPHIC] [TIFF OMITTED] T1072.102

[GRAPHIC] [TIFF OMITTED] T1072.103

[GRAPHIC] [TIFF OMITTED] T1072.104

[GRAPHIC] [TIFF OMITTED] T1072.105

[GRAPHIC] [TIFF OMITTED] T1072.106

[GRAPHIC] [TIFF OMITTED] T1072.107

[GRAPHIC] [TIFF OMITTED] T1072.108


</pre></body></html>
